                        NATIONAL SCIENCE FOUNDATION
                            ARLINGTON, VA 22230




    Off i c e of
Inspector General



MEMORANDUM




                                                       used in the
             procurement of the Facilities Management Contract
       TO:   Case No.     I93090040


On September 22, 1993, we received an allegation that advance
procurement


proposal. The contrac
Contract, for which
Technical
information was given in February, 1993.     -



We interviewed the Senior Contracts Administrator, Division of
Information Systems (DIS), the Facility Management Branch Chief,
DIS, the Contracts Officer, Division of Contracts, Policy, and
Oversight (CPO), and                the COTR for the Facilities
Management Contract.
In reviewing the contract file, we found that the Facilities
Management Contract was granted under the Small Business
Administration (SBA) 8 (a) Program, which provides for the granting
of contracts to disadvantaged minority firms without an open
competition. According to the testimony of those interviewed, the
DIS Senior.Contracts Administrator contacted'four potential firms
in February, 1993. Each firm was provided with a list of expected
made by the Senior Contracts Administrator, DIS, and the Deputy
Director, DIS, with technical input from the Facility Management
Branch Chief and the COTR.




by the new firm when co         pire and to assist the new firm in
writing proposals. Mr-.         was not interviewed as there is no
evidence indicating wrongdoing on his part.
We found no evidence to support the allegation that wrongdoing
occurred in the issuance of the Facilities Management Contract.
However, in our investigation we discovered that COTRs are not
required to file a Financial Disclosure. We believe COTRs fall
within the category of employees required to submit financial
disclosure statements (5 CFR SS 735.403). We recommend the Office
of the General Counsel (OGC) review current NSF policy regarding
which employees are required to submit financial disclosure
statements.
This case is closed.
